    Office of Inspector General

    Audit Report




Information Technology

Comprehensive Environmental
Response, Compensation, and
Liability Information System (CERCLIS)
Data Quality


Report No. 2002 - P - 00016


September 30, 2002
Inspector General Division                   Information Technology Audit Division,
 Conducting the Audit                         Washington, DC
Regions Covered                              EPA-wide

Program Office Involved                      Office of Solid Waste and Emergency Response
                                             Office of Enforcement and Compliance Assurance

Audit Team Members                           Edward Densmore
                                             Diane Vigue
                                             Corey Costango
                                             Cheryl Reid




Abbreviations

CERCLA            Comprehensive Environmental Response, Compensation, and Liability Act

CERCLIS           Comprehensive Environmental Response, Compensation, and Liability
                  Information System

EPA               U.S. Environmental Protection Agency
GAO               U.S. General Accounting Office

GPRA              Government Performance and Results Act

NFRAP             No Further Remedial Action Planned

NPL               National Priorities List

OERR              Office of Emergency and Remedial Response

OIG               Office of Inspector General
OMB               Office of Management and Budget

OSWER             Office of Solid Waste and Emergency Response

RCRA              Resource Conservation and Recovery Act

SPIM              Superfund/Oil Program Implementation Manual
Action Required

        In accordance with EPA Order 2750, you, as the action official, are required to provide us with
a written response to the audit report within 90 days of the final audit report date. For corrective
actions planned but not completed by the response date, reference to specific milestone dates will assist
us in deciding whether to close this report.

      Should you or your staff have any questions regarding this report, please contact Edward
Densmore, IT Projects Manager, Information Technology Audit Division, at (202) 566-2565.

Attachment

cc:     Johnsie Webster, Audit Coordinator
         Office of Program Management (5103)
        Greg Marion, Audit Coordinator
         Administration and Resources Management Support Staff (2201A)
        Michael Ryan
         Deputy Chief Financial Officer and Agency Follow-up Official (2710A)
        Kathy Sedlak-O’Brien
         Agency Audit Follow-up Coordinator (2724A)
                  EXECUTIVE SUMMARY
INTRODUCTION

     Congress passed the Comprehensive Environmental Response, Compensation, and Liability
     Act (CERCLA) in 1980. This statute established the Environmental Protection Agency’s
     (EPA’s) hazardous substance release reporting and cleanup program, known as the
     “Superfund” program. The Comprehensive Environmental Response, Compensation, and
     Liability Information System (CERCLIS) is the official repository for all Superfund site data
     compiled in support of CERCLA. EPA uses CERCLIS data to track Superfund site activities
     and for annual Superfund reporting to Congress.

OBJECTIVE

     The objective of this audit was to determine whether CERCLIS data, for active and archived
     sites, was accurate and reliable (timely, complete, and consistent). Although CERCLIS data is
     used to manage the Superfund program, we did not visit any Superfund sites to determine if any
     of the sampled actions had in fact been performed. Our verification work was limited to
     reviewing Superfund site document files at EPA’s 10 regions and interviewing responsible
     Agency officials. We did not review the effectiveness of the Agency’s Superfund response and
     enforcement activities, nor did we determine the impact of any data deficiencies on those
     activities.

     In this particular audit, we did not measure the audited offices’ performance against the
     standards established by the National Contingency Plan (NCP). The findings contained in this
     audit report relate only to programmatic measures, and cannot be relied upon to create any
     rights, substantive or procedural, enforceable by any party in litigation with the United States.

RESULTS IN BRIEF

     Over 40 percent of CERCLIS data on site actions reviewed was inaccurate or not adequately
     supported. We identified actions with inaccurate dates, as well as actions not supported by
     appropriate documentation or without the signature of an approving official on the
     documentation. As a result, CERCLIS users do not have error free data. The data is used to
     analyze and report on the Superfund program, as well as track internal EPA measurements of
     progress in assessing the inventory of sites. Further, EPA does not have a complete official
     record documenting the history of activities at CERCLIS sites. These weaknesses were
     caused by the lack of an effective quality assurance process.



                                                                                Report No. 2002-P-00016
    Status-related data on sites was often inaccurate. Data on the National Priority List (NPL)1,
    non-NPL, and archive (i.e., removed) status codes, were incorrect. In addition, we identified
    the following issues, primarily at non-NPL sites: (1) inconsistent use of NPL and non-NPL
    status codes, (2) active sites without any actions entered for at least 10 years, and (3) frequent
    use of a non-descriptive status code. As a result, users of CERCLIS data did not have
    accurate and complete information regarding the status and activities of Superfund sites, which
    can adversely impact planning and management. These weaknesses were caused by the lack
    of adequate internal controls over CERCLIS data quality.

RECOMMENDATIONS

    The report includes 11 recommendations to improve controls over CERCLIS data quality.
    Recommendations include developing and implementing a quality assurance process for
    CERCLIS data that requires periodically selecting random samples of CERCLIS data elements
    and then verifying this data to source documents. In addition, we recommended developing
    and utilizing exception reports to identify sites: (1) that have not had any actions entered into
    CERCLIS for a reasonable amount of time, and (2) with a non-NPL status code that indicates
    an action is needed or ongoing when this particular action has already been completed. We
    also recommended updating the CERCLIS policies and procedures to adequately address the
    appropriate use of NPL and non-NPL status codes, as well as when a site should be
    unarchived or archived.

AGENCY COMMENTS AND OIG EVALUATION

    We received comments from Assistant Administrators for EPA’s Office of Solid Waste and
    Emergency Response (OSWER) and Office of Enforcement and Compliance Assurance
    (OECA). OSWER strongly objects to the study design and report conclusions, stating they do
    not focus on OSWER’s data quality hierarchy and the importance it places on NPL sites.
    OSWER further states the report “may mislead the public as to the quality of NPL data, when
    in fact, the margin of the purported ‘errors’ were found in non-NPL CERCLIS actions.”
    OECA is primarily concerned that the report’s findings could slow down EPA’s Superfund
    enforcement program. In addition, OECA states the report’s language (1) does not emphasize
    extensive data quality efforts with respect to post-1990 data, (2) does not accurately portray
    the status of CERCLIS data for the Superfund enforcement program, and (3) “could lead
    CERCLA defendants to needlessly question the quality of EPA’s CERCLIS” data.

    OSWER states it is committed to developing a replacement for the CERCLIS system that
    will design data quality into the front end, rather than having to be developed at the



                                     1
                                       A national list of hazardous sites with the most serious threats to human
                                     health and the environment.

                                                  ii
                                                                                  Report No. 2002-P-00016
system’s end. OSWER reported it is currently re-engineering CERCLIS and plans to
reevaluate and institute data quality processes that will meet the cited recommendations.

We believe the audit methodology is both valid and objective, that the report findings
accurately summarize the overall quality of key CERCLIS data elements, and
implementing our recommendations will reduce the risk of inaccurate and unsupported
data. We tested data elements that EPA uses for Congressional reporting, as well as ones
managers told us were important for internal management purposes. Agency officials were
given opportunities to comment on our sampling methodology at the start of our
verification work. They did not express any concerns that would have resulted in a
different methodology. We did not focus on OSWER’s “data quality hierarchy,” because
the first time this was mentioned was in OSWER’s September 10, 2002 response
memorandum. Also, as explained in Chapter 2, our analysis does not substantiate that
NPL site action data is treated with any greater importance than data for non-NPL sites.

In our opinion, the recommendations are needed and will be useful in addressing the
causes of the reported weaknesses and should, when fully implemented, reduce the risk of
inaccurate and unsupported data. The recommendations can and should be implemented
prior to the development of a new CERCLIS.




                                            iii
                                                                         Report No. 2002-P-00016
iv
     Report No. 2002-P-00016
                              TABLE OF CONTENTS

                                                                                                                 Page
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          1
              Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
              Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                2

2        SITE ACTION DATA INACCURATE OR UNSUPPORTED . . . . . . . . . . . . . . 5
               Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
               Inaccurate and Unsupported Site Action Data . . . . . . . . . . . . . . . . . . . . . . . . . . 5
               Error Projections for CERCLIS Site Action Data . . . . . . . . . . . . . . . . . . . . . . . 7
               Action Sample Data Presented by Major Program Area . . . . . . . . . . . . . . . . . . 7
               Data Errors Before and After CERCLIS Version 3 . . . . . . . . . . . . . . . . . . . . . . 9
               Data Errors for NPL Versus Non-NPL Sites . . . . . . . . . . . . . . . . . . . . . . . . . 10
               Deficiencies Resulted in Unreliable CERCLIS Site Action Data . . . . . . . . . . . . 11
               Ineffective Quality Assurance Process Led to Inadequate Data . . . . . . . . . . . . 13
               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
               Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

3        SITE STATUS DATA INACCURATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                17
               Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17
               Incorrect Site Status Codes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              17
               Additional Issues Noted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            23
               Deficiencies Resulted in Unreliable CERCLIS Site Status Information . . . . . . .                                    25
               Inadequate Internal Controls Led to Inaccurate Data . . . . . . . . . . . . . . . . . . . .                          26
               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            27
               Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         28




                                                                    v
                                                                                                           Report No. 2002-P-00016
APPENDICES

1   Description of the Stages for Processing Superfund Hazardous Waste Sites . . . . . . . . . 29

2   Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

3   List of Site Actions in Action Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

4   Results of Action Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

5   Description of CERCLIS Status Codes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

6   OSWER Comments to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

7   OECA Comments to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

8   Report Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55




                                                              vi
                                                                                                      Report No. 2002-P-00016
             CHAPTER 1
             INTRODUCTION


Purpose      The objective of this audit was to determine whether the
             Comprehensive Environmental Response, Compensation,
             and Liability Information System (CERCLIS) data, active as
             well as archived, was accurate and reliable. Specifically, we
             evaluated the accuracy, completeness, timeliness, and
             consistency of the data entered into CERCLIS.

Background   Congress passed the Comprehensive Environmental
             Response, Compensation, and Liability Act (CERCLA) in
             1980. This statute established the Environmental Protection
             Agency’s (EPA’s) hazardous substance release reporting
             and cleanup program, known as the “Superfund” program.
             CERCLA provides broad Federal authority to respond
             directly to releases or threatened releases of hazardous
             substances that may endanger public health or the
             environment. CERCLA requires the Agency to maintain a
             list of hazardous sites, known as the National Priorities List
             (NPL), with the most serious threats to human health and the
             environment. See Appendix 1 for a description of the stages
             for processing Superfund hazardous waste sites.

             CERCLIS is the official repository for all Superfund site
             data compiled in support of CERCLA. CERCLIS,
             implemented in 1987, is an integrated system which holds
             national site assessment, removal, remedial, enforcement,
             and financial information. It is a relational database system
             that uses client-server architecture (each computer or
             process on the network is either a client or server), installed
             on separate local area networks, at EPA Headquarters, and
             at all 10 regional Superfund program offices. A relational
             database management system stores data in related tables
             and can be viewed in many different ways.

             EPA’s Office of Emergency and Remedial Response
             (OERR) is responsible for system availability and
             continuity of operations. OERR is part of the Office of
             Solid Waste and Emergency Response (OSWER).


                        1
                                                       Report No. 2002-P-00016
                        CERCLIS has over 1,900 users, at EPA Headquarters and
                        its 10 regional offices. CERCLIS data is copied nightly
                        from the regional databases to a national database
                        maintained at OERR, and is also updated nightly with
                        financial transaction records extracted from the Integrated
                        Financial Management System.

                        CERCLIS data is used by EPA to (1) track activities for
                        each site in the Superfund program; (2) support financial
                        statements and report on the Superfund program;
                        (3) maintain an inventory of reported potentially hazardous
                        waste sites with site descriptions, site investigations, and
                        cleanup activities; (4) project dates and the costs of clean-
                        up and enforcement activities; and (5) support Superfund
                        program and project management processes.

Scope and Methodology   We conducted this audit from April 2000 to November
                        2001 at EPA’s Headquarters and its 10 regional offices.
                        We interviewed personnel in OSWER, including OERR; the
                        Office of Enforcement and Compliance Assurance; and
                        EPA regional Superfund offices. We reviewed applicable
                        Federal policies and guidelines. CERCLIS listed data on
                        44,007 potential hazardous waste sites, comprised of
                        11,754 active sites and 32,253 archived (i.e, removed)
                        sites. We obtained three random samples from the June 30,
                        2000 CERCLIS database to review and analyze data. We
                        conducted this audit in accordance with Government
                        Auditing Standards, issued by the Comptroller General of
                        the United States.

                        We did not evaluate the effectiveness of the Agency’s
                        Superfund response and enforcement activities, nor did we
                        determine the impact of any data deficiencies on those
                        activities. Although CERCLIS data is used to manage the
                        Superfund program, we did not visit any Superfund sites to
                        determine if any of the sampled actions had in fact been
                        performed. Our verification work was limited to reviewing
                        Superfund site document files at EPA’s 10 regions and
                        interviewing responsible Agency officials.

                        Also, the OIG did not measure the audited offices’
                        performance against the standards established by the
                        National Contingency Plan (NCP). The findings contained
                        in this audit report relate only to programmatic measures,

                                   2
                                                                 Report No. 2002-P-00016
and cannot be relied upon to create any rights, substantive
or procedural, enforceable by any party in litigation with the
United States.

Details on our scope and methodology, including applicable
policies, our statistical sampling, and prior U.S. General
Accounting Office (GAO) and EPA audit coverage, are
found in Appendix 2.




           3
                                         Report No. 2002-P-00016
4
    Report No. 2002-P-00016
                             CHAPTER 2
                          SITE ACTION DATA
                     INACCURATE OR UNSUPPORTED

                             Over 40 percent of the CERCLIS data on site actions was
                             inaccurate or not adequately supported. Looking at
                             CERCLIS data since its inception, we identified actions with
                             inaccurate dates, as well as actions not supported by
                             appropriate documentation or without the signature of an
                             approving official on the documentation. As a result,
                             CERCLIS users do not have error free data to analyze and
                             report on the Superfund program, as well as track internal
                             EPA measurements of progress in assessing the inventory of
                             sites. Further, EPA does not have an accurate and
                             complete official record documenting the history of activities
                             at CERCLIS sites. These weaknesses occurred because
                             OERR did not establish an effective quality assurance
                             process for CERCLIS data.

Criteria                     As detailed in Appendix 2, Public Laws, Office of
                             Management and Budget (OMB) Circulars, and EPA
                             Directives all require accurate and reliable data. For
                             example, EPA Directive 2100, Information Resources
                             Management Policy Manual, requires that management
                             ensure the quality (accuracy, adequacy, and reliability) of
                             data. EPA Directive 2160, Records Management Manual,
                             requires adequate and proper documentation of
                             transactions. OSWER Directive 9200.3-14-1E, Fiscal
                             Years (FY) 1987-2000 Superfund/Oil Program
                             Implementation Manuals (SPIM), define requirements for
                             site actions, such as documentation, dates, and
                             authorizations.

Inaccurate and Unsupported   Many actions entered into CERCLIS for active sites were
Site Action Data             inaccurate or not adequately supported. Site actions are
                             activities that have taken place at a site, such as preliminary
                             assessments, site inspections, removals, combined remedial
                             investigations/feasibility studies, potentially responsible party
                             searches, records of decision, remedial actions, and cost
                             recovery decisions not to sue.



                                         5
                                                                        Report No. 2002-P-00016
We obtained a statistical sample of 221 site actions out of a
universe of 38,649. For a list of the types of actions in our
sample see Appendix 3. We found that 42.9 percent of the
actions in our sample (95 of 221) were in error.2 In
particular, we found that:

! 67 stated an inaccurate start and/or completion date,

! 22 were not supported by required documentation, 3 and

! 16 did not contain required approval signatures.

We determined dates to be inaccurate if they were:
(1) required but not input into CERCLIS, or (2) not
adequately supported. Actions with inaccurate dates
included: preliminary assessments, site inspections,
expanded site inspections, Hazard Ranking System
packages, combined remedial investigations/ feasibility
studies, remedial design/remedial action negotiations, and
remedial actions. Start and completion dates for actions are
used to analyze and track cleanup progress at sites and
determine the amount of time it takes to perform actions.
Although we used the SPIM requirements in determining the
accuracy of the start and completion dates, OERR officials
indicated they are primarily concerned with (1) dates
required, but not input into CERCLIS, and (2) dates in the
wrong fiscal year.




2
  Some actions contained more than one error, but we did not count more than
one error per action item when calculating error projections for the CERCLIS
database. Therefore, while we found a total of 105 errors, only 95 were used
for projection purposes.

3
  Agency officials do not think that unsupported actions should constitute an
error. They believe this condition should be addressed as a records
management issue and not used to project error rates in the CERCLIS database.
While we agree that an unsupported action may indicate a records management
issue, it may also be that 1) the supporting documentation is filed correctly but
the action was entered to the wrong site or 2) the documentation never existed.

             6
                                              Report No. 2002-P-00016
                               For the 38 sampled action items lacking documentation:

                               !       22 actions did not have any supporting
                                       documentation, although Agency officials were given
                                       six months to produce requested documents,

                               !       16 actions had source document that was not signed
                                       by an approving official.

                               These actions included: preliminary assessments, site
                               inspections, expanded site inspections, removals, and
                               remedial design/remedial action negotiations.

Error Projections for          Based on the 42.9 percent error rate in our sample of
CERCLIS Site Action Data       actions for active sites, we projected with 95 percent
                               confidence the accuracy of the 38,649 actions entered into
                               CERCLIS, between October 1, 1986 and June 30, 2000.
                               According to our projections, the number of actions in
                               CERCLIS containing errors ranged from 14,064 to 19,239,
                               or a midpoint of 16,615 errors.

Action Sample Data Presented   Subsequent to issuance of the draft report, Agency officials
by Major Program Area          indicated they would like to see the action sample presented
                               by four program areas: site assessment, removal, remedial,
                               and enforcement. Because this sample was not stratified by
                               major program areas, no error projections could be made to
                               these individual areas. However, we have depicted the
                               basic distribution of sampled items and resulting data errors
                               by major program area.

                               The following chart identifies the distribution of sample
                               action items (i.e., 221 actions) amongst the key program
                               areas.




                                          7
                                                                       Report No. 2002-P-00016
                                                  Total Sample Actions by Major Program Area
                                                                    Total: 221 Actions




                                                                61
                                                                27.6%                83
                                                                                     37.6%


                                                                 56
                                                                 25.3%            21                 Site Assessment
                                                                                  9.5%               Removal
                                                                                                     Remedial
                                                                                                     Enforcement




  Likewise, the following charts depict the raw results of sampled actions, distributed by major
  program area.

Action Sample Results for Site Assessment                         Action Sample Results for Removal

                Total: 83 Actions                                                 Total: 21 Actions




                                                                                             10                  Correct
      42              41                    Correct                     11
                                                                                             47.6%
      50.6%           49.4%                 Incorrect                   52.4%                                    Incorrect




    Action Sample Results for Remedial                              Action Sample Results for Enforcement
                Total: 56 Actions                                                     Total: 61 Actions




                                                                             18
       24                                                                    29.5%
                                            Correct                                                               Correct
       42.9%          32
                                            Incorrect                                     43                      Incorrect
                      57.1%
                                                                                          70.5%




                                                            8
                                                                                                       Report No. 2002-P-00016
                               For more details regarding the types of actions sampled in
                               each major program area and the corresponding results, see
                               Appendix 4.

Data Errors Before and After   Our examination of sampled action items showed no
CERCLIS Version 3              significant decrease in the percentage of data errors
                               following the implementation of CERCLIS Version 3
                               (i.e., October 1, 1996). Subsequent to issuance of the draft
                               report, OSWER representatives stated they believed the
                               error rate for the most current data to be significantly lower
                               (i.e., 8 percent or less), and that the audit report was
                               misleading because it did not give credit to OSWER’s
                               quality assurance improvements. Our analysis, depicted
                               below, does not support this assertion.

                               Agency representatives stated the audit failed to account for
                               changes in data systems and business processes from 1987
                               to 2000. They also emphasized that each new version of
                               CERCLIS represented a new set of business processes and
                               program guidance rules, which differed substantially from
                               earlier versions of the system. OSWER stated these new
                               rules and business processes were needed to keep the
                               system in step with the changes in the program, as well as to
                               improve data reliability. Representatives also noted that
                               management made a conscious decision not to change the
                               data from the predecessor systems nor to retroactively
                               correct any information to fit newer rules or processes.

                               Although the SPIM changed on a frequent basis, we
                               measured each sample item to the SPIM requirements
                               applicable at the time of the action. Because the sample was
                               not stratified based on the implementation of CERCLIS
                               Version 3, we could not project the rate of error within the
                               entire CERCLIS system. However, using raw data, we can
                               depict the basic distribution of data errors between these
                               two main strata - that is, before and after the implementation
                               of CERCLIS Version 3. Of the 221 sampled action items,
                               177 predated the implementation of CERCLIS Version 3,
                               and 44 occurred after the start of fiscal 1997.



                                          9
                                                                        Report No. 2002-P-00016
The following charts show that the percentage of data errors did not substantially decrease after the
implementation.




   Action Sample Results Before the                           Action Sample Results After the
Implementation of CERCLIS-3 (10/01/96)                    Implementation of CERCLIS-3 (10/01/96)

       Total: 177 Actions                                         Total: 44 Actions




                                         Correct                  17                               Correct
       78
                                                                  38.6%
       44.1%         99                  Incorrect                                                 Incorrect
                                                                               27
                     55.9%
                                                                               61.4%




Data Errors For NPL                        In response to the draft report, OSWER referenced a
Versus Non-NPL Sites                       ‘data quality hierarchy’ and noted the importance it places
                                           on NPL sites. OSWER states that the report findings “may
                                           mislead the public as to the quality of NPL data, when in
                                           fact, the margin of the purported ‘errors’ were found in non-
                                           NPL CERCLIS actions.”

                                           Our analysis does not support the assertions that: (1) NPL
                                           site action data is treated with any greater importance than
                                           data for non-NPL sites, or (2) the margin of purported
                                           “errors” were found in non-NPL CERCLIS actions.
                                           Because the sample was not stratified based on whether
                                           actions were for NPL sites versus non-NPL sites, no error
                                           projections could be made to the universe of NPL and non-
                                           NPL sites. However, using raw data, we can depict the
                                           basic distribution of sample action data errors between NPL
                                           and non-NPL sites. Of the 221 sampled action items, 91
                                           were related to NPL sites and 130 were related to non-
                                           NPL sites.

                                           The following charts show the percentage of data errors are
                                           comparable for actions related to NPL sites versus non-
                                           NPL sites.


                                                     10
                                                                                       Report No. 2002-P-00016
                                                          Action Sample Results For Non-NPL Sites
Action Sample Results For NPL Sites

         Total: 91 Actions                                         Total: 130 Actions




        39                            Correct                      56                               Correct
        42.9%                         Incorrect                    43.1%                            Incorrect
                        52                                                         74
                        57.1%                                                      56.9%




 Deficiencies Resulted in                       As a result, CERCLIS users may not have error free
 Unreliable CERCLIS                             information about site activities. Effective management of
 Site Action Data                               the Superfund program requires the availability of accurate
                                                information on sites throughout the country. CERCLIS data
                                                is used by EPA managers to (1) track and manage activities
                                                for sites under the Superfund Program, (2) maintain an
                                                inventory of reported potentially hazardous waste sites,
                                                (3) project dates for site cleanup and enforcement activities,
                                                (4) set funding and workload priorities, and (5) assess
                                                progress in achieving Superfund accomplishment goals.

                                                An important function of Superfund managers, at
                                                Headquarters, is to report on the national progress of the
                                                Superfund program. These managers rely on CERCLIS
                                                data to report on accomplishments. Many CERCLIS
                                                reports are generated based on the site action data and/or
                                                start and completion dates for these actions. Therefore,
                                                inaccurate and unsupported data in these fields negatively
                                                impacts key management reports. For example:

                                                ! The Superfund Accomplishments Report is used by
                                                  EPA managers to track accomplishment actions,
                                                  including NPL and non-NPL removals, remedial
                                                  investigations/feasibility studies, remedial actions and
                                                  remedial design/remedial action negotiations.



                                                          11
                                                                                           Report No. 2002-P-00016
! The Government Performance and Results Act (GPRA)
  Report is used by managers to track GPRA
  performance goals and measures, such as the number of
  removal actions.

! The Superfund Historical Performance Reports provide
  graphical presentations of progress made at sites, and
  are used to present an overall picture of Superfund
  program activities.

Superfund managers also use CERCLIS site action data to
perform trend and duration analyses of events. For
example, the Superfund Accomplishments Report tracks the
time span from the final NPL listing to the remedial
investigation/feasibility study, and the time span from the
Record of Decision signature to the remedial action start.
These durations are calculated based on actual dates. In
addition, the Cost Recovery Targeting Report uses the start
and completion dates of actions to develop a list of sites that
may have potential statutes of limitations expiring for cost
recovery at a site. Without accurate site action data,
managers cannot rely on CERCLIS to effectively manage
the Superfund program.

Without adequate supporting documentation, EPA managers
do not have an accurate and complete official record of
activities at CERCLIS sites. For example, the documents
supporting site inspections provide the soil and water
sampling results. The data collected and analyzed as part of
a site inspection are used to generate a hazardous ranking
system score. This score is used to determine whether a site
should be considered for listing on the NPL. Also, the
remedial investigation/feasibility study documents important
historical information on a site, such as the extent of
contamination, identification of preliminary remedial
alternatives, and recommendations of a cost effective
remedy. These documents, which are part of the
administrative record, may be needed for remediation
activities, as well as protecting the rights of those involved in
the transfer or sale of the land or property involved.
According to EPA’s Approved Superfund “Administrative
Records” Schedule, any judicial reviews concerning the
           12
                                          Report No. 2002-P-00016
                         adequacy of site response actions are limited to the
                         administrative record. Without adequate supporting
                         documentation, EPA managers lack assurance that the data
                         in CERCLIS is accurate.

Ineffective Quality      The weaknesses noted were caused by OERR’s lack of
Assurance Process        an effective quality assurance process to ensure the
Led to Inadequate Data   accuracy of, and proper support for, CERCLIS data.

                         EPA Directive 2100 requires management to ensure the
                         quality of its data, and states quality includes such
                         characteristics as accuracy, adequacy, and reliability.
                         CERCLIS data quality requirements are in the SPIM, which
                         states data owners are responsible for complete, current,
                         consistent, and accurate data. In addition, the SPIM assigns
                         data sponsors (the EPA program office or individual
                         responsible for the data element in CERCLIS) with the
                         responsibility for taking an active role in improving the
                         quality of CERCLIS data by periodically conducting focus
                         studies. However, the SPIM does not state what is involved
                         in a focus study or provide guidance on how one should be
                         conducted.

                         None of the data sponsors we interviewed were aware of
                         the SPIM requirement to conduct focus studies, or what
                         constitutes a focus study. One data sponsor stated that if a
                         focus study entails taking a random sample of data elements
                         and then verifying this data to the source documents in the
                         files, a review like this has not been done since
                         approximately 1992. Although the data sponsors are
                         performing limited quality assurance-related activities, these
                         activities are not detailed or comprehensive enough to
                         provide a high level of assurance that CERCLIS data is
                         accurate, reliable, and adequately supported.

                         Data sponsors are involved in some data quality activities,
                         such as comparing CERCLIS accomplishment data to
                         Department of Justice reports relating to consent decrees,
                         and regional general counsel reports on settlements. The
                         data sponsors coordinate with regional Superfund officials to
                         resolve any discrepancies they identify. These limited
                         activities may help identify data not entered into
                                    13
                                                                  Report No. 2002-P-00016
                      CERCLIS, but probably would not determine whether data
                      in CERCLIS is adequately supported.

Recommendations       We recommend the Director of OERR:

                      2-1. Develop and implement a quality assurance process
                           for CERCLIS data that includes:

                            S     clearly delineating quality assurance
                                  responsibilities, and

                            S     periodically selecting random samples of
                                  CERCLIS data elements and then verifying this
                                  data to source documents in the site files.

                      2-2. Review and update (if necessary) the documentation,
                           official date, and signature requirements for CERCLIS
                           site actions in the SPIM so that these requirements are
                           clearly delineated.

Agency Comments and   We received comments from Assistant Administrators for
OIG Evaluation        OSWER and OECA. OSWER strongly objects to the study
                      design and report conclusions, stating they do not focus on
                      OSWER’s data quality hierarchy and the importance it places
                      on NPL sites. OSWER further states the report “may
                      mislead the public as to the quality of NPL data, when in fact,
                      the margin of the purported ‘errors’ were found in non-NPL
                      CERCLIS actions.” OSWER’s response notes the audit
                      erroneously concludes that the following conditions constitute
                      inaccurate information: 1) locating paper records in a place
                      other that the primary Regional Office, 2) placing only the
                      month or year in a data field rather than the quarter or fiscal
                      year, and 3) lack of signature on a paper record. OECA is
                      primarily concerned that the report’s findings could slow
                      down EPA’s Superfund enforcement and lead people to
                      reach inaccurate conclusions about the program. In addition,
                      OECA states that the report’s language: (1) does not
                      emphasize extensive data quality efforts with respect to
                      post-1990 data, (2) does not accurately portray the status of
                      CERCLIS data for the Superfund enforcement program, and
                      (3) “could lead CERCLA defendants to needlessly question

                                14
                                                               Report No. 2002-P-00016
the quality of EPA’s CERCLIS and other information
systems data.”

OSWER states it is committed to developing a replacement
for the CERCLIS system that will design data quality into the
front end, rather than having to be developed at the system’s
end. OSWER reported it is currently re-engineering
CERCLIS and plans to reevaluate and institute data quality
processes that will meet the cited recommendations.

We believe the audit methodology was both valid and
objective, that the report findings accurately summarize the
overall quality of key CERCLIS data elements, and that the
proposed recommendations will reduce the risk of inaccurate
and unsupported data. We consulted with GAO statisticians
throughout the development of our sampling plan and audit
methodology, and they concurred with the validity of the
methodology used. We tested data elements that EPA uses
for Congressional reporting, as well as ones managers told us
were important for internal management purposes. Agency
officials were given opportunities to comment on our sampling
methodology prior to the start of our verification work at
EPA’s 10 regions. However, they did not express any
concerns that would have resulted in a different methodology.


We did not focus on OSWER’s “data quality hierarchy,”
because the first time this was mentioned was in OSWER’s
September 10, 2002 response memorandum. Also, as
explained in this chapter, our analysis does not substantiate
that NPL site action data is treated with any greater
importance than data for non-NPL sites.

Concerning OSWER’s statement that we reached erroneous
conclusions, we never state or imply in the report that
locating paper records in a place other than the primary
regional office constituted an error. However, we do state
that if Agency officials did not produce supporting
documentation for a sample action within the six months
given to them, then we counted it as an error. Also, we do
not state that placing only the month or year in a data field

          15
                                         Report No. 2002-P-00016
rather than the quarter or fiscal year constitutes inaccurate
information. Rather, the report states that dates were
determined to be inaccurate if: (1) they were required but
not input into CERCLIS, or (2) the dates entered were not
in accordance with the SPIM. We chose the SPIM as the
standard for judging date accuracy, because Agency
representatives questioned the objectiveness of our initial,
more flexible test criteria. Finally, the report does not state
the lack of a signature on a paper record constitutes
inaccurate information. The report merely notes that without
adequate documentation: (1) EPA does not have an
accurate and complete official record documenting the
history of activities at CERCLIS sites, and (2) EPA
managers lack assurance that the data in CERCLIS is
accurate.

In our opinion, the recommendations are needed and will be
useful in addressing the causes of the reported weaknesses
and should, when fully implemented, reduce the risk of
inaccurate and unsupported data. The recommendations
can and should be implemented prior to the development of
a new CERCLIS.




           16
                                         Report No. 2002-P-00016
                             CHAPTER 3
                        SITE STATUS DATA INACCURATE


                               The status of non-NPL sites in CERCLIS was often
                               inaccurate. All non-NPL sites contain data fields for NPL,
                               non-NPL, and archive status codes, and we discovered
                               these codes were frequently incorrect. We also identified:
                               (1) inconsistent use of the NPL and non-NPL status codes,
                               (2) active sites without any actions entered for at least 10
                               years, and (3) frequent use of a non-descriptive status code.
                               As a result, users of CERCLIS data do not have complete
                               and error free information regarding the status and activities
                               of many sites, particularly non-NPL sites, which may
                               adversely impact planning and management. These
                               weaknesses were caused by the lack of adequate internal
                               controls over CERCLIS data quality, and an ineffective
                               quality assurance process.

Criteria                       As detailed in Appendix 2, Public Laws, OMB Circulars,
                               and EPA Directives all require the accuracy and reliability of
                               data. For example, EPA Directive 2100 requires that
                               management ensure the quality (accuracy, adequacy, and
                               reliability) of data. The SPIM, issued by OSWER, states
                               the data entry requirements and establishes the archiving
                               policy.

Incorrect Site Status          CERCLIS contained inaccurate or incomplete data on the
Codes                          NPL, non-NPL, and archive status codes. Specifically:

                               S   Approximately 40 percent of the active sites (123 of
                                   309) in our aging4 sample had incorrect NPL or
                                   non-NPL status codes. This involved 7 NPL and
                                   116 non-NPL status codes.



                               4
                                  The “aging” sample consisted of sites which were maintained as active sites
                               in the CERCLIS database, but for which no action had been entered into the
                               system for at least 10 years.
                                          17
                                                                           Report No. 2002-P-00016
                    S   Approximately 26 percent of the sites (86 of 333) in our
                        sample of archived sites (i.e., archiving sample) should
                        have been unarchived prior to entering more than 190
                        actions. An archived site is to be changed to an active
                        site if its condition changes or new information becomes
                        available. Also, we identified 20 percent of the sites (61
                        of 309) in our aging sample as candidates for archiving.

                    For a description of the NPL, non-NPL, and archive status
                    codes, see Appendix 5. These status codes are the basis for
                    the reporting logic in CERCLIS-generated reports. The
                    following sections provide details on our sample results, in
                    addition to results of other tests on CERCLIS data using
                    computer-assisted audit techniques.

Incorrect NPL       We identified seven sites in our aging sample with incorrect
Status Codes        NPL status codes. These sites had an NPL status code of
                    “N” (Not on the NPL) although all of these sites were being
                    addressed as part of an NPL site. According to the SPIM,
                    these sites should have had an NPL status code of “A”
                    (Part of an NPL site).

                    Due to the problems noted, we performed an additional test
                    against the universe of all active sites (i.e., sites not archived)
                    in CERCLIS. We did this by identifying sites with the
                    following codes: an NPL status code of “N,” a non-NPL
                    status code of “AX” (Addressed as part of an NPL site),
                    and an action qualifier of “A” (Addressed as part of an
                    existing NPL site). An action qualifier is a code identifying
                    the priority level or recommendation for further action at a
                    site. This test resulted in the identification of 30 additional
                    sites with an incorrect NPL status code. Based on the non-
                    NPL status code and action qualifier, all of the sites should
                    have had an NPL status code of “A.”

Incorrect Non-NPL   We identified 116 sites from the aging sample with
Status Codes        incorrect non-NPL status codes. For example:

                    ! Sites had a status code of “SS” (Site inspection start
                      needed) when in fact a site inspection was completed.


                               18
                                                                Report No. 2002-P-00016
                    ! Sites had non-NPL status fields that were not filled in
                      but should have been.

                    ! Sites deferred to Resource Conservation and Recovery
                      Act (RCRA) should have had a non-NPL status code of
                      “DR” (Deferred to RCRA), but instead had such codes
                      as “SS,” “PS” (Preliminary assessment start needed),
                      and “SX” (Status not specified).

                    Based on the non-NPL status code inaccuracies found in the
                    aging sample, we performed additional tests against the
                    universe of active sites in CERCLIS. These tests included
                    reviewing different site coding combinations for accuracy.
                    We selected 16 non-NPL status codes that indicate the start
                    of an action is needed or is ongoing (see Appendix 4).
                    We identified 200 sites that indicated an illogical/incorrect
                    relationship between the non-NPL status code and the
                    actions entered into CERCLIS. For example, 44 sites with
                    a non-NPL status code of “PS” (Preliminary assessment
                    start needed) had an action entered in CERCLIS for a
                    completed preliminary assessment. Also, 43 sites had a
                    non-NPL status code of “SS” (Site inspection start needed)
                    but site inspections had been completed according to
                    CERCLIS data.

                    We also analyzed the relationship between non-NPL and
                    NPL status codes in our aging sample. We identified 25
                    sites without non-NPL status codes even though they
                    should have had them. Specifically, 17 of the sites had an
                    NPL status code of “A” (Part of another NPL site) and 8
                    had an NPL status code of “N” (Not on the NPL).
                    According to the SPIM, any site with an NPL code
                    indicating the site is not on the NPL is required to have a
                    non-NPL status code. We performed additional tests to
                    identify the number of active CERCLIS sites that met these
                    two conditions. We found another 388 sites with an NPL
                    status code of “A” or “N” that did not have a non-NPL
                    code and should have had one.

Incorrect Archive   We found archiving weaknesses in both our archiving and
Status Codes        aging samples. We identified sites listed as archived
                    although ongoing Superfund activity was taking place. We
                              19
                                                            Report No. 2002-P-00016
also found active sites that were not being archived timely
when no further interest existed at the site under the
Superfund program.

We found that 86 of the 333 sites in our archiving sample
should have been unarchived prior to entering site actions
into CERCLIS. Actions recorded after the archive date for
these 86 sites included site assessment, removal,
enforcement, cost recovery, and oversight activities, even
though the SPIM indicates these actions should not be
taking place after a site is archived. According to the
SPIM, an archived site should be unarchived if conditions
change or new information indicates that Superfund
involvement is warranted.

Although the remaining 247 sites from the archiving sample
had actions recorded in CERCLIS after the archive date,
these sites were part of a February 1995 EPA archiving
initiative. This initiative was an automated effort that turned
on the archive indicator and retroactively generated an
archive date. This date coincided with the completion date
of the last site assessment action entered in CERCLIS with
an action qualifier of “N” (No further remedial action
planned). However, the system logic did not take into
consideration non-site assessment actions (such as remedial
and enforcement) entered after the last completed site
assessment action with an “N” action qualifier. Therefore,
it appears that actions were entered after the site was
archived.

We showed an OERR official the types of actions (e.g., site
assessment, removal, enforcement, etc.) identified after the
archive date and he stated if a site had a removal action that
was started and/or completed, the system logic in the
archiving initiative would not have archived those sites. He
explained that if a site had a removal action after the archive
date, the action had been entered in CERCLIS after the site
was archived. This official further stated there should not be
any archived sites with removal actions started but not
completed. We performed additional tests against the
universe of all archived sites and identified 58 archived sites

           20
                                          Report No. 2002-P-00016
with a removal, removal assessment, or removal negotiation
action started but not completed. OERR should review
these sites and determine whether they were archived
appropriately.

Based on the results of our archiving sample, we conducted
another test against the universe of archived sites. We
excluded the majority of sites that were part of EPA’s 1995
archiving initiative, unless they had actions entered after
February 1995 or the sites were archived after that date.
We identified 567 additional sites that should have been
unarchived prior to entering site actions into CERCLIS
based on the SPIM. The actions recorded after the archive
date for these sites included site assessment, removal,
enforcement, cost recovery, and oversight activities. We
asked OERR if there are any actions that can be entered to
a site after it is archived without having to unarchive it.
Based on our question, a list of actions was compiled and
provided to us. However, this list of actions is not contained
in CERCLIS policies or guidance stating they can be
entered to archived sites without unarchiving the sites.

In addition to sites not being unarchived even though there
was ongoing Superfund activity, we found 61 sites in our
aging sample that were candidates for archiving. According
to the National Oil and Hazardous Substances Pollution
Contingency Plan and the SPIM, regional Superfund offices
are required to regularly identify and archive sites where no
further Superfund program interest exists. Specifically, the
SPIM states a site is an archive candidate if any of the
following conditions exist:

! The site is deleted from the final NPL.

! The site is removed from the proposed NPL or
  withdrawn from the final NPL.

! The site has only completed the site assessment process
  and has either been given a No Further Remedial Action
  Planned (NFRAP) or Deferred Decision.


          21
                                        Report No. 2002-P-00016
         ! The site has completed both the removal and site
           assessment process, or has completed the removal
           process and does not require site assessment work.
           Additionally, these sites must have completed all related
           enforcement, cost recovery, and oversight activities.

         We identified the 61 sites in our aging sample as archive
         candidates by analyzing the NPL and non-NPL codes used.
         We reviewed and discussed these site files with regional
         Superfund staff, who concurred with our conclusions. The
         archive candidates from our aging sample included sites that
         were: (1) deleted from the NPL, (2) listed as having no
         further remedial action planned, (3) deferred to RCRA, and
         (4) having waste removed and cost recovery completed,
         and needing no further remedial assistance.

         Using the SPIM archiving criteria, we performed additional
         tests on the universe of active sites in CERCLIS. Results
         indicated that 2,351 additional sites met the SPIM archiving
         conditions, as shown in the following chart:



                                                              Number of
          NPL/Non-NPL Status             CERCLIS Coding       Active Sites

Deleted from the Final NPL              NPL - “D”                 206

Removed from the Proposed NPL           NPL - “R”                  45

Withdrawn from the Final NPL            NPL - “W”                    6

No Further Remedial Action Planned      non-NPL - “NF”           1,203

Deferred to RCRA Program                non-NPL - “DR”            244

Deferred to Nuclear Regulatory
Commission                              non-NPL - “DN”               1

Removal Only Site                       non-NPL - “RO”            611

State Deferral                          non-NPL - “SD”             35

 Total                                                           2,351




                    22
                                                    Report No. 2002-P-00016
                           OERR officials should review sites that meet the SPIM
                           archiving conditions, in order to determine whether these
                           archive candidates should be archived.

                           As evidenced by the results of our tests, sites are not being
                           unarchived when there is ongoing Superfund activity, or are
                           not being archived timely if no further interest exists under
                           the Superfund program. These archiving deficiencies
                           significantly affect the accuracy of site status information in
                           CERCLIS.

Additional Issues Noted    In addition to the weaknesses already discussed, we noted
                           several other issues of concern. Specifically, we found that
                           NPL and non-NPL status codes were not consistently used
                           at some non-NPL sites in CERCLIS; sites were listed as
                           active even though they had no actions entered for at least
                           10 years; and a non-descriptive code was used too
                           frequently. Details on these issues follow.

Inconsistent Use of Site   Along with the use of incorrect site status codes, we
Status Codes               identified inconsistent use of NPL and non-NPL status
                           codes by EPA regions. For example:

                           S     Three regions used an NPL status code “O” (Not a
                                 valid site or incident) for sites undergoing pre-
                                 CERCLIS screening while five other regions used the
                                 NPL code “N” (Not on the NPL) for the same
                                 purpose.

                           S     Two regions used an NPL status code of “O” for
                                 sites that had U.S. Coast Guard removals, while five
                                 other regions used an NPL code of “N.” Although
                                 the NPL status code of “O” is defined in the
                                 CERCLIS data dictionary as “not a valid site or
                                 incident,” it is used as the NPL status code for almost
                                 900 sites. This code is not adequately described in
                                 CERCLIS policies and procedures, and clarification
                                 on the code’s use is needed.

                           S     Three regions used the non-NPL status code “OS”
                                 (Other State lead cleanup activities) for 599 sites,
                                      23
                                                                     Report No. 2002-P-00016
                                    while 4 other regions used this code only 72 times and
                                    3 did not use it at all. Superfund officials indicated that
                                    all regions should have some sites with a non-NPL
                                    status code of “OS.” Without consistent use of this
                                    code, site assessment reports will not accurately
                                    reflect which and how many non-NPL sites have other
                                    cleanup activities being performed under State
                                    programs.

Active Sites Had              None of the sites in our aging sample had any actions
No Actions Entered            entered in at least 10 years. Many of these sites should be
for at Least 10 Years         archived or reassessed. We identified source documents
                              indicating site activity in 17 percent of the site files (53 of
                              309 sampled items). These site activities had not been
                              entered into CERCLIS and included: preliminary
                              assessments, site inspections, expanded site inspections, site
                              reassessments, Hazard Ranking System packages, consent
                              decrees, and records of decisions. CERCLIS does not
                              accurately reflect the current status of sites if actions are not
                              being entered timely.

Frequent Use of a             While analyzing the relationship of the NPL and non-NPL
Non-Descriptive Status Code   status codes in our aging sample, we identified 13 sites with
                              an NPL status code of “N” (Not on the NPL) and a
                              non-NPL status code of “SX” (Status not specified).
                              Through additional testing, we found another 2,190 sites
                              coded as “SX” from the active sites in CERCLIS. These
                              sites accounted for almost 19 percent of the active sites.

                              Although “SX” is a valid non-NPL status code, it does not
                              clearly describe the status of a site, and we consider its
                              frequent use to be a matter of concern. When we brought
                              this to the attention of CERCLIS managers, they said that
                              non-NPL status codes were initially generated based on the
                              NPL status code, the actions entered, and the action
                              qualifiers. If the data in the fields did not clearly indicate
                              ongoing work or the next steps to be taken at a site, an non-
                              NPL status code of “SX” was automatically assigned.

                              In addition to the “SX” code, there are 29 other non-NPL
                              status coding options available, many of which are more
                              descriptive. Superfund managers agreed and stated they

                                         24
                                                                         Report No. 2002-P-00016
                           have been reviewing some of these sites and changing the
                           non-NPL status codes. During the course of our audit, the
                           number of sites coded as “SX” was reduced to 1,075.
                           According to a Superfund manager, this number has been
                           further reduced to approximately 600 sites. Any site with a
                           non-NPL status code of “SX” should be reviewed and
                           changed to a more descriptive code in a timely manner.

Deficiencies Resulted in   As a result of the weaknesses previously discussed,
Unreliable CERCLIS         CERCLIS users do not have error free data, particularly
Site Status Information    about non-NPL sites regarding site status data. The system
                           logic for CERCLIS reports is heavily dependent on the
                           NPL, non-NPL, and/or archive status information. For
                           example, the NPL and non-NPL Site Summary Reports
                           track the major activities of Superfund sites in CERCLIS.
                           The accuracy of these reports is contingent on NPL, non-
                           NPL, and archive status data being correct, as well as the
                           accuracy and timeliness of the site actions entered into
                           CERCLIS. These reports would be of little value if status
                           codes and actions are not timely entered into CERCLIS to
                           reflect site activities that have taken place.

                           Additionally, the Active Site Inventory Report tracks the
                           status of all active sites in the CERCLIS database. The
                           integrity of this report is based on the archive status field and
                           the site actions being entered accurately and timely. For
                           example, if sites are not getting archived timely, this report is
                           overstating the number of active sites.

                           Also, the Superfund Accomplishments Report is used to
                           track and assess the status of NPL and non-NPL sites in
                           meeting performance goals. The integrity of this report is
                           also dependent on the accuracy of the NPL and non-NPL
                           status codes. For example, this report uses the NPL status
                           code “A” to report on sites addressed as part of an existing
                           NPL site. The GPRA Report uses the archive flag to
                           determine the number of sites archived per year, as well as
                           the number of sites archived without corresponding
                           assessment decisions. The archive flag and non-NPL status
                           codes are also used in this report to determine the number of
                           sites with: (1) no further remedial actions planned, and (2)
                           assessment work still underway. EPA managers cannot

                                      25
                                                                      Report No. 2002-P-00016
                      rely on the site status information in CERCLIS to accurately
                      support the planning and management of the Superfund
                      program. Furthermore, the public, which has access to
                      CERCLIS data via EPA’s web site, is being misinformed on
                      the correct status and site activities of many Superfund sites.

Inadequate Internal   The weaknesses occurred because OERR did not
Controls Led to       establish adequate internal controls over CERCLIS
Inaccurate Data       data quality. For example, Superfund managers have not
                      developed a process to review older sites that have not had
                      any actions entered into CERCLIS for a number of years.
                      Management has backlog reports that identify the next step
                      for a site in the Superfund process, but these reports do not
                      identify the number of years a site has gone without having
                      any actions entered into CERCLIS. Management needs to
                      determine what is a reasonable amount of time for active
                      sites to sit idle, and then develop exception reports to alert
                      managers as appropriate.

                      In addition, CERCLIS policies and procedures do not
                      adequately address the appropriate use of NPL and non-
                      NPL status codes. As discussed earlier in this chapter,
                      more specific guidance is needed on such codes as the NPL
                      status code “O” (Not a valid site or incident) and the non-
                      NPL code “SX” (Status not specified). By not clearly
                      defining a code for users in terms of how and when the code
                      is to be used, the code is subject to interpretation, which
                      results in it being inconsistently applied.

                      Also, the archiving policy needs to be clarified to clearly
                      convey to users when a site should be unarchived or
                      archived. The SPIM contains the archiving policy and
                      states an archived site is to be returned to CERCLIS as an
                      active site if its condition changes or if new information
                      becomes available that indicates additional Superfund
                      involvement is warranted. However, many users were
                      unclear of what actions would warrant unarchiving a site.
                      Additionally, the SPIM states a site should be archived
                      when there are no further site assessment, remedial,
                      removal, enforcement, cost recovery, or oversight activities
                      being planned or conducted at the site. However, there is


                                 26
                                                               Report No. 2002-P-00016
                  no national process to ensure eligible candidates are
                  archived in a timely fashion.

                  Further, as discussed in Chapter 2, quality assurance-related
                  activities were not sufficiently detailed or comprehensive to
                  provide a high level of assurance that CERCLIS data, for
                  active as well as archived sites, was accurate, reliable, and
                  adequately supported.

Recommendations   We recommend the Director of OERR:

                  3-1. Develop and utilize exception reports to identify sites:

                        S     that have not had any actions entered into
                              CERCLIS for a reasonable amount of time, and

                        S     with a non-NPL status code that indicates an
                              action is needed or ongoing when this particular
                              action has already been completed.

                  3-2. Update CERCLIS policies and procedures to
                       adequately address the appropriate use of NPL and
                       non-NPL status codes. Specifically, CERCLIS
                       policies and procedures need to:

                        S     clearly define the use of the NPL status codes
                              “A” (Site is part of an NPL site) and “O” (Not a
                              valid site or incident), as well as the non-NPL
                              status code “OS” (Other Cleanup Activity:
                              State-Lead Cleanup), and

                        S     require managers to review sites with a non-
                              NPL status code of “SX” (Status not specified)
                              in a timely manner and to change this code to
                              one that is more descriptive.

                  3-3. Continue to review the sites with a non-NPL status
                       code of “SX,” and change this code to a more
                       descriptive one.




                            27
                                                           Report No. 2002-P-00016
                      3-4. Review archived sites with removal actions started but
                           not completed, and determine whether they were
                           archived appropriately. If it is determined that any of
                           these sites are active, then unarchive them.

                      3-5. Review and archive (if appropriate) any sites meeting
                           the current archiving criteria.

                      3-6. Update the archiving policy to clarify when a site
                           should be unarchived or archived. Specifically, the
                           policy needs to state what actions, if any, can be made
                           to archived sites without having to unarchive them and
                           what actions would warrant unarchiving a site.

                      3-7. Implement system edit checks to prohibit entry of
                           unacceptable actions at archived sites.

                      3-8. Develop and implement a process for having a
                           representative from the various Superfund program
                           areas (e.g., site assessment, removal, enforcement,
                           etc.) concur with the decision to archive a site.

                      3-9. Emphasize to users the importance of the NPL, non-
                           NPL, and archive status codes and their accuracy, as
                           well as the need to enter all actions defined in the
                           SPIM into CERCLIS in a timely manner.

Agency Comments and   Officials from OSWER and OECA did not specifically
OIG Evaluation        respond to the weaknesses and recommendations in
                      Chapter 3. However, both offices offered general
                      comments which have been summarized in the Executive
                      Summary and Chapter 2.




                                28
                                                             Report No. 2002-P-00016
                                            APPENDIX 1
                   DESCRIPTION OF THE STAGES FOR PROCESSING
                       SUPERFUND HAZARDOUS WASTE SITES

  The first step in the Superfund process is the identification of contaminated sites that may pose risks
  to the public or the environment. Sites may be identified to EPA by State officials, private citizens,
  or referrals from other regulatory programs. Once identified, EPA has the authority to take action at
  these sites under its Removal and/or Remedial Program. Data is entered into CERCLIS in order to
  maintain a listing of the various site actions and to monitor the status of site cleanup efforts.

  The following diagram depicts the stages for processing Superfund hazardous waste sites. For a
  description of each stage, see the corresponding number following the diagram.



                       2.
                  Pre-CERCLIS                                          5.
                                                                                   6.             7.
      1.           Screening,          3.            4.              Hazard                                       8.
                                                                               HQ Review      Proposed
Contaminated       (Enter into    Preliminary       Site             Ranking                                  Final NPL
                                                                                of HRS         For NPL
Site Identified     CERCLIS       Assessment     Inspection          System                                     Listing
                                                                                package         Listing
                       as                                             Score
                   appropriate)


                                                                                                                  9.
                                                    4a.                                                       Remedial
                                                                                          7a.
                                                 Expanded                                                      Actions
                                                                                       Removal
  Federal/                                          Site                                 from                 (cleanup)
   State/                                        Inspection
   Tribal                                                                              Proposed
  Program                                                                             NPL Listing

                                                    3a.
                                                  Removal
                                                   Actions                                                10.
                                                                                                        Deletion
                                                                                                     from the Final
                                               No Further                                              NPL Listing
                                           Remedial Action Planned
                                                 (NFRAP)




                                                              29
                                                                                           Report No. 2002-P-00016
1.   Sites may be identified by state officials, private citizens, or referrals from other regulatory
     programs. Not all sites identified are entered into CERCLIS; some are cleaned up under
     other federal/state/tribal programs.

2.   The pre-CERCLIS screening process begins for sites referred to EPA’s Superfund
     program. This process is used to determine whether further site evaluation steps are
     required under CERCLA, and to minimize the number of sites unnecessarily entered into
     the CERCLIS inventory.

3.   Once a site is entered into CERCLIS, the site generally undergoes a Preliminary
     Assessment. This involves reviewing existing reports and documentation about the site and
     analysis of geological and hydrological data, as well as identifying populations and sensitive
     environments likely to be affected. At this stage, goals are to establish whether a removal
     action is necessary and determine whether the site poses potential risks to public health.
     If a Preliminary Assessment determines the site does not present potential risk, the site is
     typically eliminated from further consideration by designating it as No Further Remedial
     Action Planned (NFRAP).

     3a.   Removal Actions may be performed at any point in the assessment/cleanup process.
           A removal action is a short-term response intended to stabilize or clean up an incident
           or site that poses a threat to public health or welfare. Removal actions generally last
           no longer than 12 months and cost no more than $2 million.

4.   For those sites requiring further investigation, a Site Inspection is generally conducted.
     Although the Preliminary Assessment is typically an off-site review, the Site Inspection
     involves a hands-on inspection in which soil and/or water samples are collected to better
     characterize site contamination.

     4a.   If additional data are required, an Expanded Site Inspection will be conducted, which
           can include complex background sampling and the installation of monitoring wells. If
           the Site Inspection or Expanded Site Inspection determines that releases from the site
           pose no threat to human health and the environment, the site is designated as
           NFRAP.

5.   A Hazard Ranking System score is developed based on the data collected and analyzed as
     part of the preliminary assessment and site inspection. This System is EPA’s screening tool
     to determine whether a site should be considered for listing on the NPL. Application of the
     Hazard Ranking System scoring is the primary mechanism by which EPA places sites on
     the NPL. It takes into account the likelihood that a site has released, or has the potential to
     release, hazardous substances into the environment; the toxicity and quantity of the
     hazardous substances at the site; and the proximity of people and sensitive


                                                    30
                                                                                    Report No. 2002-P-00016
     environments to the release. The Hazard Ranking System scores up to four pathways of
     potential human exposure to contamination (i.e., groundwater, surface water, soil, and air)
     and then combines the individual pathway scores into an aggregate site score. Sites with a
     score below 28.5 are listed as NFRAP. If the preliminary score equals or exceeds 28.5,
     the site may be considered for inclusion on the NPL and goes through additional review and
     screening before it is actually proposed for listing on the NPL.

6.   EPA’s regional staff submit the Hazard Ranking System package to EPA headquarters for
     review. After evaluating the data, EPA headquarters, in collaboration with the region and
     the state in which the site is located, may propose the site for listing on the NPL. Based on
     the results of the completed Hazard Ranking System package, EPA may also determine
     that the site should be designated as NFRAP.

7.   EPA publishes the list of sites in the Federal Register as a proposed rulemaking, at which
     time the site listing decisions are generally subject to a 60-day public comment period.

     7a.   The Federal Register publishes the proposal to remove the site from the proposed
           NPL listing, and subsequently publishes the final notice of the removal.

8.   At the end of the 60-day period, after public comments have been considered and
     negotiations with other interested parties have been conducted, EPA compiles a final rule,
     which is published in the Federal Register. It is only at this point that a site is considered a
     “final” NPL site.

9.   Remedial actions are “long-term” cleanups. Long-term remedial actions permanently and
     significantly reduce the dangers associated with actual or potential releases of hazardous
     substances that are serious but not immediately life threatening. Remedial responses can be
     conducted only at sites on the NPL list.

10. With state concurrence, EPA may delete sites from the NPL when it determines that no
    further response is appropriate under CERCLA. The Federal Register publishes both the
    Intent to Delete and Notice of Deletion of the site from the NPL.




                                                    31
                                                                                   Report No. 2002-P-00016
32
     Report No. 2002-P-00016
                                    APPENDIX 2
                   DETAILS ON SCOPE AND METHODOLOGY


The focus of this audit was to assess whether CERCLIS data was accurate and reliable. We
reviewed system documentation for CERCLIS, such as the file structure, record layouts, user
manual, and data element dictionary. We used automated tools, such as the Interactive Data
Extraction and Analysis for Windows 3.0 software and the Auditors’ Statistical Sampling
Estimation Tool, to gather, extract, and analyze CERCLIS data.

We conducted the audit from April 2000 to November 2001 at EPA Headquarters in
Washington, DC, and EPA’s 10 regional offices. We interviewed personnel in OSWER,
including OERR; OECA; and EPA regional Superfund offices. In addition, we performed on-site
reviews of Superfund site document files at EPA’s 10 regions.

We conducted this audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Our audit included tests of management and related
internal controls, such as using automated tools to examine the accuracy of the CERCLIS action
and site status data. In addition, we reviewed and analyzed policies and procedures specifically
related to the audit objectives.

We want to emphasize this was an audit of CERCLIS data quality (i.e., the system), and not
specifically of the Agency’s implementation of the Superfund program. Although CERCLIS data
is used to manage the Superfund program, we did not visit any Superfund sites to determine if any
of the sampled actions had in fact been performed. Our verification work was limited to
reviewing Superfund site document files at EPA’s 10 regions and interviewing responsible
Agency officials.

Public Laws, OMB Circulars, and EPA Directives

To accomplish this audit, we reviewed the following documents:

     ! Public Law 96-510, Comprehensive Environmental Response, Compensation, and
       Liability Act of 1980: This is the law that established the Superfund program, and
       governs cleanups of both Federal and non-Federal hazardous waste sites.

     ! Public Law 99-499, Superfund Amendments and Reauthorization Act of 1986: This
       law amended the 1980 CERCLA law and made several important changes. Changes



                                                  33
                                                                               Report No. 2002-P-00016
         included revising the Hazard Ranking System to ensure it accurately assessed the relative
         degree of risk to human health and the environment posed by uncontrolled hazardous
         waste sites that may be placed on the NPL.

     ! Public Law 104-13, Paperwork Reduction Act of 1995: This law states each agency is
       responsible for carrying out information resources management activities to improve
       productivity, efficiency, and effectiveness related to information used within and outside
       the agency.

     ! OMB Circular A-123, Management Accountability and Control: This circular
       requires agencies to develop and implement management controls to ensure reliable and
       timely information is obtained, maintained, reported, and used for decision making.

     ! OMB Circular A-130, Management of Federal Information Resources: This circular
       requires agencies to protect and ensure the integrity and availability of its information.

     ! EPA Directive 2100, Information Resources Management Policy Manual: This
       directive requires that management ensure the quality of its data, and notes that quality
       includes such characteristics as accuracy, adequacy, and reliability.

     ! EPA Directive 2160, Records Management Manual: This directive, which addresses
       the Agency’s records/information management program, requires the Agency to maintain
       adequate and proper documentation for its transactions.

     ! EPA Directive 2195, Information Security Manual: This directive, which establishes
       requirements for securing Agency information resources, requires the Agency to ensure
       that its information systems provide accurate, timely, and credible information.

     ! EPA OSWER Directive 9200.3-14-1E, FY’s 1987-2000 Superfund/Oil Program
       Implementation Manuals (SPIM): These manuals establish policy for managing the
       Superfund program, including CERCLIS data entry, and define the requirements for site
       actions, such as the documentation, dates, and appropriate authorizations needed for
       actions.

     ! EPA National Records Management Program, Approved EPA Records Schedules -
       Superfund: This policy establishes retention periods for maintaining official records.

Statistical Sampling Methodology

We obtained three random statistical samples from the June 30, 2000 CERCLIS database to
determine whether CERCLIS information was complete, consistent, timely, and adequately



                                                  34
                                                                               Report No. 2002-P-00016
supported by source documents. CERCLIS contained data on 44,007 potential hazardous waste
sites (11,754 active and 32,253 archived sites). The active CERCLIS sites had 146,759 actions
applied to them. We worked with statisticians from GAO to verify that our sampling methodology
was statistically valid based on a 95 percent assurance level with a +/- 5 percent precision for
attribute sampling. Attribute sampling is used to estimate the frequency of occurrence of a specific
event or item in a universe. We used a commercial software program to determine the sample
sizes. The three attribute samples used were as follows:

      1.    Action Sample: Attribute sampling techniques were used to estimate the percentage
            of error in recording various site actions in CERCLIS (see Appendix 3 for a list of
            actions in this sample). These actions reflect activities that have taken place at sites in
            the active CERCLIS inventory. Site action data that differed from, or could not be
            adequately supported by, source documents were classified as errors. We eliminated
            planned actions, subactions, and actions not defined in the SPIM from the 146,759 site
            actions for active CERCLIS sites. Because fiscal year 1987 was the first year of
            written guidance, we then removed all actions with a completion date prior to fiscal
            year 1987. For this reason, we also removed all actions with a start date prior to fiscal
            year 1987 that did not have a completion date. This resulted in a universe of 38,649
            site actions. From this, we selected a random sample of 221 site actions. We verified
            the CERCLIS site action data to the SPIM requirements and to the source documents
            in the site files.

      2.    Aging Sample: The purpose of this sample was to review active sites that were in the
            active portion of the database but did not have any actions entered into CERCLIS in at
            least 10 years. From the 11,754 active sites, we identified a universe of 1,579 sites
            without an action recorded in CERCLIS in at least 10 years. From this universe, we
            selected a random sample of 309 sites to determine whether actions had in fact
            occurred or the site should have been archived.

      3.    Archived Sample: We used the archiving sample to identify sites that were archived
            but had an action entered into CERCLIS after the archive date. Sites that EPA decides
            do not warrant further Superfund attention may be assigned archive status. From the
            32,253 archived sites in CERCLIS, we identified a universe of 2,503 archived sites
            with actions entered after the site was archived. We selected a random sample of 333
            sites from the universe.

GAO Prior Audit Coverage

Environmental Information - EPA Is Taking Steps to Improve Information Management, but
Challenges Remain (GAO/RCED-99-261), issued September 1999: The report noted that EPA
has decided to implement several data improvement initiatives. However, the report indicated



                                                    35
                                                                                   Report No. 2002-P-00016
that while these were steps in the right direction, they were limited in scope and did not provide the
overall strategy needed to ensure the completeness, compatibility, and accuracy of EPA’s
environmental data. GAO recommended EPA develop an action plan that details the key steps
that the Agency needs to take to ensure that EPA’s environmental and regulatory data are
sufficiently complete, compatible, and accurate.

Hazardous Waste - Unaddressed Risks at Many Potential Superfund Sites (GAO/RCED-99-
8), issued November 1998: The report stated CERCLIS inaccurately listed some sites as awaiting
an NPL decision although they were not eligible for listing. According to an EPA Superfund
program official, the incorrect data entries may have resulted from regional program managers’
misinterpretation of EPA’s guidance on CERCLIS coding. GAO recommended EPA correct the
errors in the CERCLIS database that incorrectly classified sites as awaiting an NPL decision and
prevent the recurrence of such errors.

Superfund - Information on the Status of Sites (GAO/RCED-98-241), issued August 1998: The
report stated testing was performed on the accuracy of data in EPA’s Superfund database of the
progress of sites through the cleanup process for a statistically random sample of 98 NPL sites.
Based on the sample results, GAO estimated the cleanup status of NPL sites in the database to be
95 percent accurate.

EPA OIG Prior Audit Coverage

Review of the Superfund Annual Report to Congress for Fiscal Year 1998 (Audit Report
2000-P-2), issued October 1999: We reported inconsistencies between CERCLIS data and
source documentation for preliminary assessments, site inspections, and removal actions. We
suggested OERR make the necessary corrections for greater accuracy.

Superfund Sites Deferred to Resource Conservation and Recovery Act (RCRA) (E1SFF8-11-
0006-9100116), March 1999: The report stated that 34 sites recorded in CERCLIS were
misclassified. We recommended that CERCLIS be updated to reflect the correct site status.

EPA Had Not Effectively Implemented Its Superfund Quality Assurance Program (E1SKF7-
08-0011-8100240), issued September 1998: The report stated EPA managers had not
demonstrated commitment to an effective quality assurance program by fully developing and
effectively implementing the program to obtain Superfund and other data of known and adequate
quality. We recommended OSWER require OERR quality assurance staff to continue performing
regional management and technical assessments to ensure that the data quality objectives policy is
being adequately implemented in the Superfund program.

Report on CERCLIS Reporting (E1SFF9-15-0023-0100187), issued March 1990: The report
stated material errors arose within CERCLIS reports and any information reported by the system



                                                    36
                                                                                  Report No. 2002-P-00016
was suspect and should only be employed cautiously. These errors resulted because of the
absence of good controls. We recommended the Agency modify the CERCLIS Reports Library
to reflect report changes.




                                             37
                                                                        Report No. 2002-P-00016
38
     Report No. 2002-P-00016
                                    APPENDIX 3
               LIST OF SITE ACTIONS IN ACTION SAMPLE



Action                                                   Action
 Code                 Action Name                         Code                  Action Name

 AC      Administrative Order on Consent                  NF      Final Listing on NPL

 AN      Remedial Design/Remedial Action                  NG      Negotiation (Generic)
          Negotiations

 AR      Administrative Records                           NP      Proposal to NPL

 BB      Potentially Responsible Party Removal            NR      Removed From The Proposed NPL

 BF      Potentially Responsible Party Remedial           NS      NPL Responsible Party Search
          Assessment

 CA      Consent Agreement (Administrative)               OF      Operational & Functional

 CD      Consent Decree                                   PA      Preliminary Assessment

 CO      Combined Remedial Investigation/                 RA      Remedial Action
          Feasibility Study

 DD      Cost Recovery Decision Document-No               RD      Remedial Design
          Sue

 EE      Engineering Evaluation/Cost Analysis             RN      Removal Negotiations

 ES      Expanded Site Inspection                         RO      Record of Decision

 FE      Five Year Remedy Assessment                      RP      Non-NPL Potentially Responsible Party
                                                                   Search

 HR      Hazard Ranking System Package                    RV      Removal

 IN      Inter-Agency Agreement Negotiations               SI     Site Inspection

 LR      Long Term Response Action                        SS      Expanded Site Inspection/Remedial
                                                                   Investigation

 LV      Federal Facility Removal                         SV      Section 107 Litigation

 LW      Federal Facility Remedial Investigation/         TA      Technical Assistance
          Feasibility Study

 MA      Management Assistance                            UA      Unilateral Administrative Order

 ND      Deletion From NPL




                                                    39
                                                                                    Report No. 2002-P-00016
40
     Report No. 2002-P-00016
                                             APPENDIX 4
                                        RESULTS OF ACTION SAMPLE

                                                                             Cause of Action Error
                                           Total    Correc
                                                             Incorrect
                                          Actions      t                    No         No          Data        Explanation
                                                                         Documents     Sig.      Problem


Site Assessment

ES   Expanded Site Inspection               6         2         4            2                       2

HR   HRS Package                            3         2         1                                    1

ND   Deletion from NPL                      2         1         1            1

NF   Final Listing on NPL                   5         5

NP   Proposal to NPL                        3         3

NR   Removed from the Proposed NPL          1                   1            1

PA   Preliminary Assessment                 29        13        16                      7            14    5 PA Actions contained
                                                                                                            more than one error

SI   Site Inspection                        33        15        18           3          3            15    3 SI Actions contained
                                                                                                            more than one error

SS   ESI/RI                                 1                   1                                    1

     Subtotals                              83        41        42           7          10           33



Removal

BB   PRP Removal                            6         2         4                                    4

EE   Engineering Eval / Cost Analysis       1                   1                       1

LV   FF Removal                             5         1         4            1                       3

RV   Removal                                9         7         2                       1            1

     Subtotals                              21        10        11           1          2            8



Remedial

AR   Administrative Records                 18        11        7            1          3            3

BF   PRP RA                                 4                   4            1                       3

CO   Combined RI / FS                       8         3         5            1                       4

FE   Five Year Remedy Assessment            2         1         1            1




                                                               41
                                                                                              Report No. 2002-P-00016
                                                                        Cause of Action Error
                                      Total    Correc
                                                        Incorrect
                                     Actions      t                    No         No          Data         Explanation
                                                                    Documents     Sig.      Problem


LR   Long Term Response Action         1         1

LW   FF RI / FS                        2         1         1            1

MA   Management Assistance             1         1

OF   Operational & Functional          1         1

RA   Remedial Action                   3                   3            1          1            2     1 RA Action contained
                                                                                                       more than one error

RD   Remedial Design                   2         1         1            1

RO   Record of Decision                12        10        2            1                       1

TA   Technical Assistance              2         2

     Subtotals                         56        32        24           8          4            13



Enforcement

AC   Admin Order on Consent            7         7

AN   RD / RA Negotiations              13        3         10           2                       8

CA   Consent Agreement (Admin.)        2         2

CD   Consent Decree                    4         3         1                                    1

DD   Cost Rcvry Decsn Doc - No Sue     7         5         2            1                       1

IN   IAG Negotiations                  3         2         1            1                       1     1 IN Action contained
                                                                                                       more than one error

NG   Negotiation (Generic)             5         5

NS   NPL RP Search                     4         2         2            2

RN   Removal Negotiations              2         2

RP   Non-NPL PRP Search                8         6         2                                    2

SV   Section 107 Litigation            2         2

UA   Unilateral Admin Order            4         4

     Subtotals                         61        43        18           6          0            13



Sample Totals                         221      126        95           22         16          67      10 Actions Contained
                                                                                                       More Than One Error




                                                          42
                                                                                         Report No. 2002-P-00016
                                 APPENDIX 5
                  DESCRIPTION OF CERCLIS STATUS CODES



NPL Status Code

The NPL status code identifies a site’s status with respect to EPA’s National Priorities List.
Every active and archived site is assigned an NPL status code. The options available for this field
are:

        A     -    Site is Part of NPL Site
        D     -    Deleted from the Final NPL
        F     -    Currently on the Final NPL
        N     -    Not on the NPL
        O     -    Not a Valid Site or Incident
        P     -    Proposed for NPL
        R     -    Removed from Proposed NPL
        S     -    Pre-Proposal Site
        W     -    Withdrawn

Non-NPL Status Code

The non-NPL status code indicates the status of a site not on the NPL. EPA conducts site
studies and addresses contamination at such non-NPL sites, and the non-NPL status code is
used to describe the current status of activity at those sites. There are 30 non-NPL status code
options, as follows. Of the 30 codes, 16 indicate an action is needed or is ongoing. Those
16 are marked with an asterisk (*):

        AX    -    Addressed as Part of a National Priorities List Site
    *   CO    -    Combined Preliminary Assessment/Site Inspection Ongoing
    *   CS    -    Combined Preliminary Assessment/Site Inspection Start Needed
        DN    -    Deferred to Nuclear Regulatory Commission
        DR    -    Deferred to Resource Conservation and Recovery Act
    *   EO    -    Expanded Site Inspection Ongoing
    *   ES    -    Expanded Site Inspection Start Needed
        HN    -    Hazard Ranking System Package Completed - Further Evaluation Needed
    *   HO    -    Hazard Ranking System Ongoing



                                                   43
                                                                                 Report No. 2002-P-00016
    *   HS    -   Hazard Ranking System Start Needed
    *   IN    -   Integrated Removal/Remedial Evaluation Ongoing
    *   IO    -   Integrated Expanded Site Inspection/Remedial Investigation Ongoing
    *   IR    -   Integrated Removal/Remedial Evaluation Start Needed
    *   IS    -   Integrated Expanded Site Inspection/Remedial Investigation Start Needed
        NF    -   No Further Remedial Action Planned
        OF    -   Other Cleanup Activity: Federal Facility-Lead Cleanup
        OP    -   Other Cleanup Activity: Private Party-Lead Cleanup
        OS    -   Other Cleanup Activity: State-Lead Cleanup
        OT    -   Other Cleanup Activity: Tribal-Lead Cleanup
    *   PO    -   Preliminary Assessment Ongoing
    *   PS    -   Preliminary Assessment Start Needed
        RO    -   Removal Only Site (No Site Assessment Work Needed)
        RR    -   Referred to Removal - No Further Remedial Action Planned
        RW    -   Referred to Removal - Further Assessment Needed
        SD    -   Deferral of National Priorities Listing Decision While States Oversee Response
    *   SG    -   Site Inspection Prioritization Ongoing
    *   SN    -   Site Inspection Prioritization Start Needed
    *   SO    -   Site Inspection Ongoing
    *   SS    -   Site Inspection Start Needed
        SX    -   Status Not Specified


Archive Status Code

The archive status code identifies whether a site is archived (i.e., removed) from CERCLIS.
Archiving represents a site-wide decision or status indicating that no further interest exists at the
site under the Federal Superfund program. It is a comprehensive decision, meaning there are no
further site assessment, remedial, removal, enforcement, cost recovery, or oversight activities
being planned or conducted at the site. Archived sites are indicated in CERCLIS with the code
NFA (No further action).




                                                     44
                                                                                    Report No. 2002-P-00016
50
     Report No. 2002-P-00016
                                   APPENDIX 8
                                REPORT DISTRIBUTION




Headquarters

   Assistant Administrator for Solid Waste and Emergency Response
   Assistant Administrator for Enforcement and Compliance Assurance
   Director for Emergency and Remedial Response
   Comptroller
   Associate Administrator for Congressional and Intergovernmental Relations
   Director, Office of Regional Operations
   Agency Followup Official
   Agency Audit Followup Coordinator
   Audit Liaison, Office of Solid Waste and Emergency Response
   Audit Liaison, Office of Enforcement and Compliance Assurance

Office of Inspector General

   Inspector General
   Assistant Inspector General for Planning, Analysis and Results
   Assistant Inspector General for Audit
   Assistant Inspector General for Program Evaluation
   Media and Congressional Liaison
   Director, Business Systems
   Divisional Inspector General, Headquarters Audit
   Divisional Inspector General, Washington Contracts
   Divisional Inspector General, Information Technology Audits




                                                 55
                                                                               Report No. 2002-P-00016
